No.
IN THE
SUPREME COURT OF THE UNITED STATES

KRISTIN D. WILKINSON,
Petitioner
vs.
COMMISSION FOR LAWYER DISCIPLINE,
Respondent

Proof of Service
I, Kristin D. Wilkinson, do swear or declare that on or before March 27,2020,1
served one copy of the resubmitted Petition for Writ of Certiorari and Appendices A-D,
electronically and three copies by first class mail, postage prepaid, on the following
parties:
Matthew Greer
Office of the Chief Disciplinary Counsel
State Bar of Texas
P.O. Box 12487
Austin, TX 78711
Matthew.Greer@texasbar.com
Counsel for Commission for Lawyer Discipline

t

/s/ Kristin Wilkinson
Kristin Wilkinson
P.O. Box 701188
Houston, Texas 77270
(713) 561-5616
kristinwilkinson@use.startmail.com

No.
IN THE
SUPREME COURT OF THE UNITED STATES

KRISTIN D. WILKINSON,
Petitioner
vs.
COMMISSION FOR LAWYER DISCIPLINE
Respondent

Proof of Service
I, Kristin D. Wilkinson, do swear or declare that on or before January 23,2020,1
served one copy of the Petition for Writ of Certiorari and Appendices A-D, electronically
and three copies by first class mail, postage prepaid, on the following parties:
Matthew Greer
Office of the Chief Disciplinary Counsel
State Bar of Texas
P.O. Box 12487
Austin, TX 78711
Matthew.Greer@texasbar.com
Counsel for Commission for Lawyer Discipline

1^2^.—'

h/ Kristin Wilkinson
Kristin Wilkinson
P.O. Box 701188
Houston, Texas 77270
(713) 561-5616
kristinwilkinson@use.startmail.com

